No. _______

IN THE
SUPREME COURT OF THE UNITED STATES
___________
AGUSTIN MADRID,
Petitioner
v.
UNITED STATES OF AMERICA
Respondent
___________
APPENDIX
___________

INDEX TO APPENDICES
Appendix A Judgment and Opinion of Fifth Circuit
Appendix B Judgment and Sentence of the United States District Court for the
Northern District of Texas

APPENDIX A

United States Court of Appeals
for the Fifth Circuit

United States Court of Appeals
Fifth Circuit

FILED
September 30, 2020

No. 20-10106
Summary Calendar

Lyle W. Cayce
Clerk

United States of America,
Plaintiff—Appellee,
versus
Agustin Madrid, also known as Augustin Madrid,
Defendant—Appellant.
Appeal from the United States District Court
for the Northern District of Texas
USDC No. 4:19-CR-273-1
Before Higginbotham, Jones, and Costa, Circuit Judges.
Per Curiam:*
Agustin Madrid appeals his 188-month, within-guidelines range
sentence for possession with intent to distribute a mixture and substance
containing a detectable amount of methamphetamine. He contends that the
district court procedurally erred by determining, in denying his motion for a

*

Pursuant to 5th Circuit Rule 47.5, the court has determined that this
opinion should not be published and is not precedent except under the limited
circumstances set forth in 5th Circuit Rule 47.5.4.

No. 20-10106

downward variance, that it lacked discretion to impose a downward variance
based on a policy disagreement with the Guidelines. Because Madrid did not
object in the district court on that specific ground, we review this issue for
plain error. See United States v. Warren, 720 F.3d 321, 332 (5th Cir. 2013).
In light of the entire record, it is neither clear nor obvious—but,
rather, subject to reasonable dispute—that the district court’s comments
reflected a belief that it lacked discretion to impose a variant sentence based
on a policy disagreement with the drug Guidelines. See Puckett v. United
States, 556 U.S. 129, 135 (2009). The court expressly stated that it would
take Madrid’s policy-based arguments into consideration in setting his
sentence. And the court explicitly based its denial of a variance on the
arguments in the Government’s response to Madrid’s motion, which
addressed only the merits of Madrid’s policy-based contentions and made no
reference to the court’s (lack of) discretion to grant a policy-based variance.
Accordingly, Madrid fails to demonstrate plain procedural error. See id.
The judgment is AFFIRMED.

2

APPENDIX B

Case 4:19-cr-00273-P Document 32 Filed 01/28/20

Page 1 of 4 PageID 111

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS
Fort Worth Division

UNITED STATES OF AMERICA

JUDGMENT IN A CRIMINAL CASE

v.

Case Number: 4:19-CR-00273-P(01)
U.S. Marshal’s No.: 64806-280
Matthew Weybrecht, Assistant U.S. Attorney
John Stickney, Attorney for the Defendant

AGUSTIN MADRID

On October 9, 2019 the defendant, AGUSTIN MADRID, entered a plea of guilty as to Count One of the
Indictment filed on September 18, 2019. Accordingly, the defendant is adjudged guilty of such Count, which
involves the following offense:
Title & Section

21 U.S.C. §§ 841 (a)(1) and (b)(1)(C))

Nature of Offense

Possession of a Controlled Substance with Intent to
Distribute

Offense Ended
8/20/2019

Count
One

The defendant is sentenced as provided in pages 2 through 4 of this judgment. The sentence is imposed
pursuant to Title 18, United States Code § 3553(a), taking the guidelines issued by the United States Sentencing
Commission pursuant to Title 28, United States Code § 994(a)(1), as advisory only.
The defendant shall pay immediately a special assessment of $100.00 as to Count One of the Indictment
filed on September 18, 2019.
The defendant shall notify the United States Attorney for this district within thirty days of any change of
name, residence, or mailing address until all fines, restitution, costs, and special assessments imposed by this
judgment are fully paid.
Sentence imposed January 23, 2020.

____________________________________________
MARK T. PITTMAN
U.S. DISTRICT JUDGE
Signed January 28, 2020.

Case 4:19-cr-00273-P Document 32 Filed 01/28/20

Page 2 of 4 PageID 112
Page 2 of 4

Judgment in a Criminal Case
Defendant: AGUSTIN MADRID
Case Number: 4:19-CR-00273-P(1)

IMPRISONMENT
The defendant, AGUSTIN MADRID, is hereby committed to the custody of the Federal Bureau of
Prisons (BOP) to be imprisoned for a term of One Hundred Eighty-Eight (188) months as to Count One of
the Indictment filed on September 18, 2019.
The defendant is remanded to the custody of the United States Marshal.
SUPERVISED RELEASE
Upon release from imprisonment, the defendant shall be placed on supervised release for a term of
Three (3) years as to Count One of the Indictment filed on September 18, 2019.
While on supervised release, in compliance with the standard conditions of supervision adopted by the
United States Sentencing Commission, the defendant shall:
( 1)
( 2)
( 3)
( 4)
( 5)
( 6)
( 7)
( 8)
( 9)
(10)
(11)
(12)
(13)

not leave the judicial district without the permission of the Court or probation officer;
report to the probation officer as directed by the Court or probation officer and submit a truthful
and complete written report within the first five (5) days of each month;
answer truthfully all inquiries by the probation officer and follow the instructions of the
probation officer;
support the defendant's dependents and meet other family responsibilities;
work regularly at a lawful occupation unless excused by the probation officer for schooling,
training, or other acceptable reasons;
notify the probation officer within seventy-two (72) hours of any change in residence or
employment;
refrain from excessive use of alcohol and not purchase, possess, use, distribute, or administer any
narcotic or other controlled substance, or any paraphernalia related to such substances, except as
prescribed by a physician;
not frequent places where controlled substances are illegally sold, used, distributed, or
administered;
not associate with any persons engaged in criminal activity and not associate with any person
convicted of a felony unless granted permission to do so by the probation officer;
permit a probation officer to visit the defendant at any time at home or elsewhere and permit
confiscation of any contraband observed in plain view by the probation officer;
notify the probation officer within seventy-two (72) hours of being arrested or questioned by a
law enforcement officer;
not enter into any agreement to act as an informer or a special agent of a law enforcement agency
without the permission of the Court; and,
notify third parties of risks that may be occasioned by the defendant's criminal record or personal
history or characteristics, and permit the probation officer to make such notifications and to
confirm the defendant's compliance with such notification requirement, as directed by the
probation officer.

Case 4:19-cr-00273-P Document 32 Filed 01/28/20

Page 3 of 4 PageID 113
Page 3 of 4

Judgment in a Criminal Case
Defendant: AGUSTIN MADRID
Case Number: 4:19-CR-00273-P(1)

In addition the defendant shall:
not commit another federal, state, or local crime;
not possess illegal controlled substances;
not possess a firearm, destructive device, or other dangerous weapon;
cooperate in the collection of DNA as directed by the U.S. probation officer;
report in person to the U.S. Probation Office in the district to which the defendant is released within 72
hours of release from the custody of the Federal Bureau of Prisons;
refrain from any unlawful use of a controlled substance. The defendant must submit to one drug test
within 15 days of release from imprisonment and at least two periodic drug tests thereafter, as
determined by the court;
participate in a program approved by the probation officer for treatment of narcotic or drug or alcohol
dependency that will include testing for the detection of substance use, abstaining from the use of
alcohol and all other intoxicants during and after completion of treatment, contributing to the costs of
services rendered (copayment) at the rate of at least $25 per month; and,
participate in mental health treatment services as directed by the probation officer until successfully
discharged, which services may include prescribed medications by a licensed physician, with the
defendant contributing to the costs of services rendered (copayment) at a rate of at least $25 per month.
FINE/RESTITUTION
The Court does not order a fine or costs of incarceration because the defendant does not have the
financial resources or future earning capacity to pay a fine or costs of incarceration.
Restitution is not ordered because there is no victim other than society at large.

Case 4:19-cr-00273-P Document 32 Filed 01/28/20

Page 4 of 4 PageID 114
Page 4 of 4

Judgment in a Criminal Case
Defendant: AGUSTIN MADRID
Case Number: 4:19-CR-00273-P(1)

RETURN
I have executed this judgment as follows:

Defendant delivered on _____________________ to ___________________________________
at ________________________________________________, with a certified copy of this judgment.
United States Marshal
BY
Deputy Marshal

